BREDHOFF & KAISER, P.L.L.C.
Bruce R. Lerner
Andrew D. Roth
Douglas L. Greenfield
Roger Pollak
Anne Ronnel Mayerson
Leon Dayan
Devki K. Virk
Robert Alexander
Matthew Clash-Drexler
Abigail V. Carter
Joshua B. Shiffrin
Jenifer A. Cromwell
Ramya Ravindran
Jacob Karabell
Caitlin Kekacs

Attorneys & Counselors
805 Fifteenth Street NW – Suite 1000
Washington, D.C. 20005
(202) 842-2600 TEL
(202) 842-1888 FAX
www.bredhoff.com

Adam Bellotti
Joshua A. Segal
Elisabeth Oppenheimer
Georgina C. Yeomans
April H. Pullium
Dana M. Krohn
——————

Richard F. Griffin, Jr.
Kathleen Keller
Philip C. Andonian
Deva A. Kyle
Of Counsel

Elliot Bredhoff
(1921 – 2004)

Henry Kaiser
(1911 - 1989)

August 4, 2020

——————

Robert M. Weinberg
Julia Penny Clark
Jeffrey R. Freund
Jeremiah A. Collins
Mady Gilson
John M. West
Senior Counsel

Via Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, DC 20543-0001
Re: PricewaterhouseCoopers LLP, et al. v. Laurent, et al., No. 20-28
Dear Mr. Harris:
We represent respondents Timothy D. Laurent and Smeeta Sharon in the
above-referenced matter, which was docketed July 16, 2020. We write, pursuant to
Supreme Court Rule 30.4, to request a 30-day extension of time in which to file
Respondents’ brief in opposition to the pending petition for certiorari. The brief in
opposition is currently due August 17, 2020. The requested extension would make
the brief due September 16, 2020.
This extension request is made in part because of the additional difficulties of
preparing a brief while working from home as a result of the COVID-19 pandemic,
and in part because respondents expect an amicus brief to be filed in support of
petitioners close in time to the current deadline. A 30-day extension to and
including September 16, 2020 will ensure that respondents have sufficient time to
analyze fully the arguments raised in the Petition and the possibly forthcoming
amicus brief.

Hon. Scott S. Harris
August 4, 2020
Page 2
Thank you for your consideration in this matter.
Respectfully submitted,
/s/ Leon Dayan
Leon Dayan
Counsel for Respondents
cc: Counsel of Record
(via e-mail)

Hon. Scott S. Harris
August 4, 2020
Page 3
CERTIFICATE OF SERVICE
I, Leon Dayan, herby certify that on August 4, 2020, I caused to be served
this letter motion for extension of time via electronic mail, with consent for
electronic service only, on the following counsel of record:
Miguel A. Estrada
Gibson, Dunn & Crutcher LLP
1050 Connecticut Ave, N.W.
Washington, DC 20036
(202) 955-8257
mestrada@gibsondunn.com
Dated: August 4, 2020

/s/ Leon Dayan
Leon Dayan

